C'OCKLE
2311 Douglas Street CA L ega 1 Bri e fs E-Mail Address:

contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Ne
DIANA GARVEY,
Petitioner,
Vv.
DENIS MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of April, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ROBERT C. BROWN, JR. KENNETH M. CARPENTER
TOMMY KLEPPER. Counsel of Record
& ASSOCIATES KENNETH H. DOJAQUEZ
702 Wall Street, Suite 100 CARPENTER, CHARTERED
P.O. Box 721980 1525 SW Topeka Blvd.,
Norman, OK 73070 Suite D

Topeka, KS 66601

(785) 357-5251

kmcarpenter@
mindspring.com

Subscribed and sworn to before me this 29th day of April, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska & Chk,
RENEE J. GOSS ¢ dean *

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 40702
SERVICE LIST

Elizabeth B. Prelogar

Acting Solicitor General

Office of the Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Ave., N.W.

Washington, DC 20530-0001

(202) 514-2203

SupremeCtBriefs@USDOJ.gov
